May 27, 2020
Writer’s Direct Contact
(202) 220-1101
(213) 683-4007 FAX
Donald.Verrilli@mto.com

Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street N.E.
Washington, D.C. 20543
Re:

Comcast Corporation et al. v. International Trade Commission, No. 19-1173

Dear Mr. Harris:
Respondents’ briefs in opposition in the above-captioned case were filed
yesterday, May 26, 2020. Pursuant to Supreme Court Rule 15.5, petitioners expressly waive the
14-day waiting period for distribution to the Court, so that the petition can be distributed on the
June 2, 2020 distribution date. That will permit the Court to consider the petition at its June 18,
2020 conference. Petitioners intend to file a reply brief in support of the petition by June 11
2020.
Thank you very much for your time and assistance on this matter.
Very truly yours,
/s/ Donald B. Verrilli, Jr.
Donald B. Verrilli, Jr.
cc:

Counsel of record

